                                  Closeout for MOO030010

A former Program Director' informed us, before he left NSF, that a PI2 allegedly failed to
provide accurate pending support information for each of two simultaneously submitted
proposals (proposals 1and 2)3'4in that neither proposal acknowledged the other as pending.
The Program Director noted that there was some budgetary overlap between the two
proposals. He also stated that he was unsure as to how he should proceed given this
situation and his understanding that the PI had previously been asked to withdraw a
proposal for the same reason. We recommended that he adhere to the normal practices of
his division and keep us informed.

Aside from confirming that the PI failed in each proposal to acknowledge the other as
pending, our comparison of proposals 1and 2 revealed that they were almost identical from
a budgetary and personnel standpoint, but quite different scientifically. According to NSF
records, two of the PI'S previous proposals (proposals 3 and 4)516were listed as withdrawn.
Furthermore, proposals 3 and 4 possessed identical titles and almost identical budgets to
those of proposals 1 and 2 respectively.

Because the overlap between proposals 1 and 2 was budgetary and not scientific, the former
Program Director's Acting Deputy Division Director' was not concerned about it. He
stated that it is the Division's practice to leave the handling of such proposal compliance
issues to the discretion of individual Program Directors. He also indicated that proposal 2
was to be declined and its declination letter could be tailored to include some reference to
the importance of properly acknowledgiig pending support on submitted proposals. We
recommended that he follow this course of action. Both proposals were declined by NSF.

This case is closed and no further action will be taken.

cc: Investigations, IG




1
2
3

    Footnotes Redacted
5
                                                                                       I
6
7




                                          Page 1 of 1                              MOO-10
